QUESTION(S) PRESENTED
Whether a sworn affidavit of the Union President that company officials acted in retaliation for having filed an
EEO complaint is a genuine issue of material fact sufficient to overcome a motion for summary judgment?

■>

l

*

-

- Vs

LIST OF PARTIES

^ All parties appear in the caption of the case on the cover page.
[ ] All parties do not appear in the caption of the case on the cover page. A list of
all parties to the proceeding in the court whose judgment is the subject of this
petition is as follows:

RELATED CASES

There are no related court cases

t

•# -

■

«■

V\

TABLE OF CONTENTS
OPINIONS BELOW

1

JURISDICTION
CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
STATEMENT OF THE CASE........................................
REASONS FOR GRANTING THE WRIT
CONCLUSION......................................

INDEX TO APPENDICES
APPENDIX A
APPENDIX B
APPENDIX C
APPENDIX D
APPENDIX E
APPENDIX F

^ •

\\

US COURT OF APPEALS FOR THE SIXTH CIRCUIT

TABLE OF AUTHORITIES CITED
CASES

PAGE NUMBER

See Harris, 510 U.S. at 17,23;
Complainant v. Federal Bureau of Investigation, EEOC Appeal No. 012012339 (May 8,2015);
Cobb v. Department of the Treasury, EEOC No. 05970077 (March 13,1997).

STATUTES AND RULES
Rehabilitation Act of 1973,29 U.S.C. § 701 et seq.,
42, USC 2000 (e)

OTHER

w

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI

Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW

For cases from federal courts:
The opinion of the United States court of appeals appears at Appendix —
the petition and is
t ] reported at
__;or,
[ ] has been designated for publication but is not yet reported; or,
k/is unpublished.
The opinion of the United States district court appears at Appendix
the petition and is
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ } is unpublished.
[ ] For cases from state courts:
The opinion of the highest state court to review the merits appears at
Appendix------- to the petition and is
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the _
court
appears at Appendix
to the petition and is
[ ] reported at___
;or,
[ 3 has been designated for publication but is not yet reported; or,
[ ] is unpublished.
1.

***

■

- —'ir
w

to

to

JURISDICTION

yA For cases from federal courts:
The date on which the United States Court of Appeals decided my case
Was September 11,2019

[ ] No petition for rehearing was timely filed in my case.
[ ] A timely petition for rehearing was denied by the United States Court of
Appeals on the following date:__________ _
, and a copy of the
order denying rehearing appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including ________________ (date) on __ _______________ (date)
'
in Application No.__ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).

[ ] For cases from state courts:
The date on which the highest state court decided my case was
A copy of that decision appears at Appendix______
[ 3 A timely petition for rehearing was thereafter denied on the following date:
, and a copy of the order denying rehearing
appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including____
(date) on
___(date) in
Application No.__ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).

'

V'.

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

l

^ '

w

I.
Whether a sworn

Question Presented

=5r.fcj55£r3Er=',S;sls
Statement of the Case
Plaintiff an African American female, is employed by the United States Post Service as Mail
Handler for more than 15 years, and states the following under oath:

1 sas

ztzgss&zzz

wnte me a 2499 Com for limited duty job assignment) A form tte is w^en upaftlr

r,r, m a CA'17 ('Duty Status RePort) y°u 8^ every time you go to your doctor

(which have your restriction on it). I was told a false statement about a New Policy on
Aug 9, 2009 that caused me to be off work for 27 days. That caused me to lose money I
never got back because SDO Melton lied to OWCP.
y
2. Instead of filling out the 2499 form SDO Hutchinson stated to me that "they have a New
obey in place and that I have to take 40 hrs of vacation time or sick leave I was

ftl Ze”daa"s ^ ‘°

“ hK °fS'Ck

1 wouW

3 2SiowrAlIft 1 ° 2009 I called my Union President, my OWCP case worker,
“2 yS« * ^ e
“ Nashvllle' ™ to see how soon I could get back to work
and to rind out if they knew anything about this New Policy (see attached Exhibit 2)
5:

^

job was to call me and tell me when to return back to work
6. No one called.
7. I called Ms Edmondson and she said, I was to return back to work on September 5 2009
1 had to call them and I returned back to work on the September 6, 2009.
glven a 2499 form that had about 6 jobs and I was taken off the higher level paying
8
9 cTbaeng^frImmmyLdsUty2 ££££

^ ^ d0C,0r ^ yOUr

“«

1011. X”
ISL'SZZZXZF*a
u"ion
steward>
1
filed
a
Grtevance
“d.«
eeo
Before, I was tricked (under pretence of a newly adopted policy) and forced out of the
building on August 9,2009,1 had signed the holiday list to work Labor Day.
12 conT °n ^ SC*iet*u^e **st t0 work But, the night before, I was told by SDO Melton not to
13. Before the filing of the EEO and the Grievance I had worked every holiday (even with
restrictions) since I have been working there.
14.1 was allowed to work the holiday before that one (Columbus Day).
15.1 found out by SDO Melton that she was instructed by SDO Vic Condroski not to allow
me work anymore holidays and take me off the higher level paying iob
16.1 had an EEO meeting on November 23, 2009.

17. Before and after the EEO meeting I was discriminated against based on my disability and
retaliated by MDO Darren Rzeplinski, SDO Vic Condroski, SDO Cindy Bingtram, SDO
Linda Melton and ASDO Tamara Dehart.
18. SDO Melton without my permission took annual and sick leave from my pay records
19. MDO Rzeplinski instructed SDO Melton to AWOL me for 6 days.
20. On 26 Jan. 2010, tried to force me to sign forged papers by threatening, intimidated
screaming and yelling,
21. On Jan- 19, 2010 I was told by SDO Bingham that I was not allowed to go to the
bathroom until my breaks and to hold it.
22. On Dec. 19, 2009 - Jan. 5, 2010 I was instructed to sit in the stand-by room for 8 hrs.
until it was time to go home.
23. On Dec. 26, 2009 they changed my non-scheduled days.
24. On Jan. 5, 2010, they changed my shift and work hours.
25. On Dec. 28, 2009, I requested to go to Union meeting. SDO Condroski denied my
request. I requested Union time to file a Grievance and was given a hard time bv SDO
Condroski.
26 ?™n 8’ 2°10,1 waS written “ AW0L a8ain by SDO Melton whom was instructed by
MDO Rzeplinski. Who told the Union President that he would remove the AWOL if I
remove the EEO complaint, (see attached Exhibit 2)
27. In Dec. 2009, I was harassed by ASDO Dehart about what bathroom that I could use
after being instructed by SDO Melton to use the public bathroom up front by the stand-by
room where I was told to stay.
3
28. On Jan. 11, 2010, I was instructed to work outside my restriction. Which by doing so
caused me more bodily injuries. It caused me to tear both my right anti left shoulders.
29. On Jan. 5, 2010, Management wouldn't approve any of my leave time.
30. On June 10, 2010, MDO Rzeplinski and SDO Bingham instructed SDO Price to tell one
of my follow co-workers that worked beside me not to talk to me or take breaks or lunch
with me. (see attached Exhibit 1)
31. In June 2012,1 received a letter from USPS stating that they have mo work for me not
now or in the near future. I have been off on OWCP since July 14, 2011 in need of 4
more surgeries.
The USPS has discriminated against Plaintiff by denying her reasonable accommodation for her
work related mjune(s) / disabilities, including carpal tunnel syndrome, ■ in violation of the
Rehabilitation Act of 1973, 29 U.S.C. § 701 et seq., as amended.
(1) she suffered from a "disability" within the meaning of the statute;
Plaintiff initially tiled a worker compensation claim in 2003 because of the onset of
Carpel Tunnel Syndrome, an injury' that affects her major life activities including, but not
limited to; dressing herself, grooming herself, feeding herself and driving her automobile.
(2) she was a qualified individual in that she was able to perform the essential functions
of her job, either with or without a reasonable accommodation; and

Plaintiff is a career track employee with Defendant USPS as a mail handler. It is
undisputed that since her initial complaint for worker compensation she has maintained
her employment with the Service by performing the essential functions of the job with or
without accommodations.
<3> despite her employer's knowledge of her disability, the employer did not offer a
reasonable accommodation for the disability'.
1. On August 9, 2009 (at night), I was forced to go home off my job by SDO Larry
Hutchinson and SDO Linda Melton (post office supervisors). Both of them refused to
write me a 2499 form for limited duty job assignment. A form that is written up after
you turn in a CA-I7 (Duty Status Report) you get every time yqu go to your doctor
(which have your restrictions on it).
2. Instead of filling out the 2499 form SDO Hutchinson stated to me that "they have a
New Policy in place” and that I have to take 40 hrs of vacation time or sick leave I
was intentionally misled and forced to take 35 hrs of sick leave. And that I would be
hearing from someone in 3 days.
3. The next day on AUG. 10, 2009 I called my Union President, my OWCP case
worker, and USPS OWCP case worker in Nashville, TN to see how soon I could get
back to work and to find out if they knew anything about this New Policy.
4. It took me 27 days to get back to work and no one knew anything about this New
Policy.
HOSTILE ENVIRONMENT / RETALIATION
Whether a sworn affidavit of the Union President that company officials acted in retaliation for
having filed an EEO complaint is a genuine issue of material fact sufficient to overcome a
motion for summary judgment.
Declaration of JR. Takacs pursuant to 28IISC J74<S
Pursuant to 28 USC 1746,1, J.R. Takacs, hereby declare.
I am more than 18 years of age and have personal knowledge of the facts set forth herein:

k“alM!7HlTerful^S,Na32ral

““ * Uni°n

f°r Natioral

During my period of employment I worked as a mail handler in Chattanooga, Hamilton County,
i. 6ull6SS66.

During my employment I worked along with Berlinda Madden at the Chattanooga facility of the
UuJr5
r

Berlinda Madden is a Union Representative for National Postal Mail Handlers Union, Local No.
t°K fc2°°9’
Madden WaS Sent home ^ her supervisors. She informed
me that SDO Larry Hutchinson and SDO Linda Melton (post office supervisors) refused to write

her a 2499 form for limited duty job assignment. She also informed me that she was told by her
supervisors that she was sent home based on a “new policy”.
When I checked into the matter I discovered that there was no policy, old or new, that justified
her supervisors sending her home for requesting a limited duty job assignment.

On or about Jan. 8, 2010 Berlinda Madden was written as AWOL by SDO Melton and MDO
Rzeplinski who told me that he would remove the AWOL if Berlinda Madden withdrew her
complaint
I declare under penalty of perjury that the foregoing is true and correct.
Declaration of Michael Houston mirsnant tp 28 USC 1746
Pursuant to 28 USC 1746, J, Michael Houston, hereby declare:
I am more than 18 years of age and have personal knowledge of the facts set forth herein:
I am a former employee of the United States Postal Service.
During my period of employment I worked as a mail handler in Chattanooga, Hamilton County,
1 wHIlCobvC.

During my employment I worked along with Berlinda Madden at the Chattanooga facility of the
Uoi o

On June 10, 2010,1 was, asked into the Postal supervisor's office by MDO Natalie Price and was
instructed that I was no longer to take a lunch with, talk to or speak with or to Berlinda Madden
while working.
Mrs. Price informed me that she was instructed by her manager to take this action against me.
I filed an EEO against Postal Management in Chattanooga, TN for this action.
I declare under penalty of perjury that the foregoing is true and correct
In assessing whether a complainant has set forth an actionable claim of harassment, the conduct
at issue must be viewed in the context of the totality of the circumstances considering inter alia,
the nature and frequency of offensive encounters and the time span over which the encounters
occurred, and whether the alleged harasser was a co-worker or a supervisor. See Harris, 510 U S
at 17, 23; Complainant v. Federal Bureau of Investigation, EEOC Appeal No. 012012339 (May
8, 2015); Cobb v. Department of the Treasury, EEOC No. 05970077 (March 13, 1997).

-

Further, the harasses conduct is to be evaluated from the objective viewpoint of a reasonable
person in the victim's circumstances. Enforcement Guidance on Harris v. Forklift Systems, Inc
EEOC Notice No. 915.002 (March 8,1994).
CONCLUSION
The pleadings together with the witness affidavits have been submitted under oath in response to
Defendant’s motion for summary judgment. This response is in addition to the previous response
already filed with the court.
In the instant case there are genuine issues of material feet that must be determined by a jury.
Plaintiff asks the United States Supreme Court to grant this Petition for Writ of Certiorari to
reverse the decision of the trial court and remand the case for hearing on the merit*?
Respectfully
Submitted
y r
j / /
Berhnda A, Madden
3210 Through Street
Chattanooga, TN 37411

Certificate of Service

Supreme Court of the United State
1 First Street, NE
Washington, DC 20543
I hereby certify that a complete copy of these pleadings were served on Defendant by US Mail
through the of Office of the US Attorney for the Eastern District ofTennessee at:
J. Douglas Overbey, US AttdrneyEDT
Leah W. McClanahan
Assistant US Attorney
800 Market Street, Suite 211
Knoxville TN 37902
Email:Leah.McClanahan@usdoj.gov

t

